U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Tony Deshawn McCoy v. United States of America,
S.Ct.No. 19-814

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
26, 2019, and placed on the docket on December 27, 2019. The government's response is due on
January 27, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 26, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-08 14
MCCOY, TONY DESHAWN
USA

PAMELA S. KARLAN
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION CLNIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-725-4851
KARLAN@STANFORD.EDU
ANTHONY MARTINEZ
FEDERAL DEFENDERS OF WESTERN NORTH
CAROLINA, INC.
129 WEST TRADE STREET
SUITE 300
CHARLOTTE, NC 28202-0000
ANTHONY_MARTINEZ@FD.ORG

